No. 18A_____

In the

Supreme Court of the United States
_______________________________

LARRY HOUSEHOLDER ET AL.,

Applicants,

v.

OHIO A. PHILIP RANDOLPH INSTITUTE ET AL.,
_______________________________

Respondents.

RESPONDENTS’ OPPOSITION TO APPLICATION FOR EXTENSION
_______________________________
DIRECTED TO THE HONORABLE JUSTICE SONIA SOTOMAYOR
ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED STATES
AND CIRCUIT JUSTICE FOR THE SIXTH CIRCUIT
_______________________________

Freda J. Levenson
Elizabeth Bonham
AMERICAN CIVIL LIBERTIES UNION
OF OHIO FOUNDATION
4506 Chester Avenue
Cleveland, OH 44103
David Carey
AMERICAN CIVIL LIBERTIES UNION
OF OHIO FOUNDATION
1108 City Park Avenue
Columbus, OH 43206
Robert Fram
Nitin Subhedar
Jeremy Goldstein
COVINGTON & BURLING LLP
415 Mission Street
San Francisco, CA 94105

T. Alora Thomas-Lundborg
Counsel of Record
Theresa J. Lee
Emily Rong Zhang
Dale E. Ho
Cecillia D. Wang
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
Tel.: (212) 549-2500
athomas@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th Street, N.W.
Washington, DC 20005
Additional counsel on next page

Michael Baker
Perrin Cooke
Peter J. Rechter
Robert S. Day
Jacob Canter
Isaac Wood
COVINGTON & BURLING LLP
850 Tenth Street, NW
Washington, DC 20001
Counsel for Respondents

The Ohio A. Philip Randolph Institute et al. (the “Plaintiffs”) submit this
brief in opposition to the application for an extension of time in which to file a
jurisdictional statement from Speaker Larry Householder et al. (the “State” or
“Applicants”). After first seeking to delay proceedings through a stay application,
Applicants seek to further forestall the effectuation of the three-judge panel’s (the
“Panel”) unanimous judgment by now seeking an extension of time to file their
jurisdictional

statement.

Applicants

seek

this

extension

despite

their

representation to the Panel that they would not seek any extension and would in
fact file an expedited appeal in exchange for their preferred later trial date. Having
been granted the later trial date, Applicants now contend that since this Court is
expected to issue decisions in Rucho v. Common Cause, No. 18-422, and Lamone v.
Benisek, No. 18-726, they should not be held to their earlier representation. Doing
so would cause irreparable harm to Plaintiffs. Given the likelihood of irreparable
harm to Plaintiffs if this case is further delayed and the lack of harm to Applicants
if the case is kept on its agreed-upon track, Plaintiffs respectfully accede to
Applicants’ pending request that this Court treat the Applicants’ stay petition as
satisfying the jurisdictional-statement requirement of Rule 18.
Plaintiffs filed their complaint in May 2018.

R.1.

From the outset, the

parties and the Panel recognized that expedition was necessary to ensure that, if a
constitutional violation were found, there would be sufficient time to remedy it
before the 2020 election. See, e.g., R.35, R.39. The parties therefore submitted to
the Court their joint report pursuant to Federal Rule of Civil Procedure 26(f) on

1

July 6, 2018, setting forth agreed-upon deadlines for the litigation. R.35. Under
the Panel’s direction and through further agreement by the parties, the proposed
schedule was revised, R.39, and the revised deadlines were ordered by the Panel.
R.41. In concluding the lengthy process of negotiating these deadlines for the case,
Applicants specifically agreed that “in the event they decide to appeal this Court’s
decision, rather than in the time provided by Fed. R. App. P. 4(a)(1) and Supreme
Court Rule 18, they will file the Notice of Appeal within one week of the order of
this Court, and will file their jurisdictional statement within 53 days of their Notice
of Appeal.” R.39.
At the time of the agreement, all of the parties were acutely aware that this
Court would likely hear another gerrymandering case this Term. As Applicants
acknowledged in their stay application, this Court has mandatory jurisdiction in
partisan gerrymandering cases decided by three judge panels under 28 U.S.C.
§ 1253. See Emergency Appl. For Stay (“Stay Appl.”) at 12, Householder v. Ohio A.
Philip Randolph Inst., No. 18A1165 (May 10, 2019) (citing 28 U.S.C. § 1253 for the
proposition that the Court has mandatory jurisdiction in this matter). On June 18,
2018, this Court had entered its judgment in Gill v. Whitford, 138 S. Ct. 1916
(2018). The day this Court issued its decision in Gill, the Court affirmed the district
court’s denial of a preliminary injunction in Benisek. Benisek v. Lamone, 138 S.Ct.
1942, 1945 (2018). As a result, Benisek would proceed in the district court to final
judgment. On June 25, 2018, the Court vacated and remanded Rucho for further
consideration in light of Gill. Rucho v. Common Cause, 138 S. Ct. 2679 (2018).

2

Given this Court’s mandatory jurisdiction, it was thus entirely predictable last July,
when the schedule in this case was established, that Benisek and Rucho would be
decided and taken up by the Court this Term.
The timing of the unanimous decision by the three-judge panel in this case
was also predictable.

The trial date was set for March 4, 2019, with the full

knowledge of that the case was on an expedited schedule.

R.39.

The parties

understood that the Panel likely would issue a decision before the end of the Term.
The parties therefore reached a good faith agreement that Applicants would file
their jurisdictional statement within 53 days of the decision, understanding that the
agreement would likely require them to file an appeal prior to the end of the Term.
The Applicants will not suffer injury if required to adhere to the current
schedule. They have already requested that their application for a stay serve as a
jurisdictional statement. Br. at 4 (requesting conversion of the stay application);
Reply in Supp. of Emergency Appl. for Stay at 2, Householder, No. 18A1165 (May
21, 2019) (“The State is happy to mollify the respondents’ concerns: it hereby moves
the Court to treat the stay-stage briefing as satisfying the requirement for a
jurisdictional statement.”); see also Stay Appl. at 1.

Because this Court has

mandatory jurisdiction over three-judge redistricting cases, there is little in the
pending cases that could change this Court’s calculus about whether or not
jurisdiction is appropriate here.
Plaintiffs agree with Applicants that this Court should treat the application
for stay as the jurisdictional statement under Rule 18.

3

Doing so would avoid

further delay in this case and avoid irreparable harm to Plaintiffs. While the State
has claimed that September 20, 2019 is the critical date for the adoption of a
districting map, Appendix (“App.”) at 294, Householder, No. 18A1165 (May 10,
2019). Ohio law and experience place that date in December, 2019. See Ohio Rev.
Code §§ 3501.01(E)(2); 3513.05; App. at 294 (noting that former Governor Kasich
signed the challenged plan that was used in the 2012 elections into law on
December 15, 2011). But regardless of which party is correct about the critical date,
to convert the stay application to a jurisdictional statement will help to ensure a
timely disposition of Plaintiffs claims, as well as an earlier date for finality of Ohio’s
congressional map. This Court has followed a similar approach in other cases. See,
e.g., Perry v. Perez, 132 S. Ct. 842 (2001) (holding that “the application for stay is
treated as jurisdictional statement, and in each case probable jurisdiction is noted”);
cf. Clinton v. Glavin, 119 S. Ct. 290 (1998) (granting a “motion to expedite
consideration of the jurisdictional statement and to set an expedited briefing
schedule”). Should the Court take that course, the request for an extension would
be moot.
CONCLUSION
The Court should deny Applicants’ request for an extension of time to file
their jurisdictional statement and grant Applicants’ request to convert the stay
motion into a probable jurisdictional statement under Rule 18.
Respectfully submitted,
Freda J. Levenson
Elizabeth Bonham

T. Alora Thomas-Lundborg
Counsel of Record
4

AMERICAN CIVIL LIBERTIES UNION
OF OHIO FOUNDATION
4506 Chester Avenue
Cleveland, OH 44103
David Carey
AMERICAN CIVIL LIBERTIES UNION
OF OHIO FOUNDATION
1108 City Park Avenue
Columbus, OH 43206
Robert Fram
Nitin Subhedar
Jeremy Goldstein
COVINGTON & BURLING LLP
415 Mission Street
San Francisco, CA 94105

Theresa J. Lee
Emily Rong Zhang
Dale E. Ho
Cecillia D. Wang
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
Tel.: (212) 549-2500
athomas@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th Street, N.W.
Washington, DC 20005
Michael Baker
Perrin Cooke
Peter J. Rechter
Robert S. Day
Jacob Canter
Isaac Wood
COVINGTON & BURLING LLP
850 Tenth Street, NW
Washington, DC 20001
Counsel for Respondents

Dated: May 29, 2019

5

